CERTIFICATE OF COMPLIANCE WITH WORD COUNT
No.
IN THE

Supreme Court of tl)t QEnttetr States;
MIREK MACHALA,
Petitioner,
v.
LIBUSE KRAL and NICHOLAS A. BROWN,
Respondents.
Pursuant to Rule 33(l)(h) of the Rules of the Supreme Court of the United States, I
hereby certify that this petition comphes with the word limitations set forth in Rule
33(l)(g). Total number of words in the document is
.

f

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March

, 2020

MIREK MACHALA
Petitioner Pro Se
3430 Connecticut Ave., N.W.
No. 4902
Washington, DC 20008
Telephone: 202-556-0756

